CERTIFICATE OF SERVICE
I certify that I served a copy of the Petition for writ
of Certiorari and writs of Mandamus with Appendix in
support on January 7th, 2021 by Personal Service or
U.S.P.S. to:
ODNI ATTN: Legal Department
Washington D.C. 20511
Iowa Northern District Court
ATTN: Jacob Schunk - Atty.
Ill 7th Avenue S.E. - Box 12
Cedar Rapids, IA 52401
Iowa Northern District Court
ATTN : Melissa Carrington - Atty.
Ill 7th Avenue S.E. - Box 12
Cedar Rapids, IA 52401

Solicitor General
of the
United States
Room 5614
Department of
Justice
950
Pennsylvania Ave
Washington D.C.
20530-0001

"I declare and certify under penalty of perjury that
the foregoing service within this Supreme Court brief are
true and correct in compliance with 28 U.S.C § 1746 and
Rule 29 - Rules of Supreme Court” :
Dated this 7th day of January, 2021
/s/ Justin Paul Sulzner
Justin P. Sulzner, Pro Se
1834 1st Avenue - #104
Cedar Rapids, Iowa 52402 (319)-213-7608
15

